   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499



July 30, 2010

Report Number: A-03-09-00021

Gregg A. Pane, MD, MPA, Director
Commonwealth of Virginia
Department of Medical Assistance Services
600 East Broad Street
Richmond, VA 23219

Dear Dr. Pane:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part D Drug Payments to Virginia for
Service Dates January 1 Through March 8, 2006. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Nicole Freda, Audit Manager, at (215) 861-4497 or through email at
Nicole.Freda@oig.hhs.gov. Please refer to report number A-03-09-00021 in all correspondence.

                                             Sincerely,



                                             /Bernard Siegel/ for
                                             Stephen Virbitsky
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Dr. Gregg A. Pane


Direct Reply to HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice (CPC)
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, Maryland 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICARE PART D DRUG
PAYMENTS TO VIRGINIA FOR SERVICE
   DATES JANUARY 1 THROUGH
         MARCH 8, 2006




                        Daniel R. Levinson
                         Inspector General

                            July 2010
                          A-03-09-00021
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Medicare Part D provides optional prescription drug coverage for
individuals who are entitled to Medicare Part A or enrolled in Medicare Part B. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
entities known as Part D sponsors to provide prescription drug coverage for beneficiaries
enrolled in the Part D program.

Part D sponsors submit a summary record called a prescription drug event (PDE) record every
time a pharmacy dispenses a prescription for a beneficiary covered under Medicare Part D. The
PDE record contains prescription drug cost and payment data that enables CMS to make
payment and otherwise administer the Part D benefit.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, Section 103(c) of the MMA, and upon implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure that these
beneficiaries continued to receive needed medications as they made the transition, some States
found it necessary to provide assistance to these beneficiaries by paying for their Medicare
Part D drugs.

To reimburse States for costs incurred during the transition period, CMS implemented the
Reimbursement of State Costs for Provision of Part D Drugs Medicare demonstration project,
pursuant to section 402(a)(l)(A) of the Social Security Amendments of 1967, as amended
(codified at 42 U.S.C. § 1395b-1(a)(1)(A)) and expressly made applicable to Part D in section
1860D-42(b) of the Act). On February 14, 2006, Virginia submitted its “Section 402
Demonstration Application” to CMS. By submitting its application, Virginia agreed to pay for
full-benefit dually eligible beneficiaries’ Part D drug claims. Virginia’s participation in the
demonstration project covered drugs dispensed from January 1 through March 8, 2006. Virginia
contracted with HMS to seek reimbursement for Medicaid claims from insurers who also
provided coverage to Medicaid beneficiaries.

OBJECTIVE

Our objective was to determine whether Virginia received payments from a Part D sponsor and
from CMS under the Medicare Part D demonstration project for the same dispensing events.

SUMMARY OF FINDING

For all 46 sampled claims, Virginia received Medicare Part D payment from both CMS and a
Part D sponsor. CMS paid and Virginia’s contractor recovered payments from the Part D
sponsor for the same dispensing events. Based on our sample results, we estimate that Virginia
                                                i
received $168,500 in improper payments for the 3,443 claims that were reimbursed by CMS
under the Part D demonstration project and also paid by the Part D sponsor.

RECOMMENDATIONS

We recommend that Virginia work with CMS to:

   •   refund to the Medicare program the $168,500 in improper Part D demonstration project
       payments identified in this audit and

   •   determine and resolve other improper Part D demonstration project payments received by
       Virginia for claims paid by other Part D sponsors.

VIRGINIA COMMENTS

In its response to our draft report, Virginia concurred with our finding. Virginia stated that it
reviewed all demonstration project claims and determined that HMS inadvertently billed and
recovered $286,388. Virginia said that it reported 50 percent of the recoveries, or $143,194, to
CMS on its Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64), and that it intended to reflect the remaining $143,194 on its next
CMS-64. Virginia’s comments on our draft report are included as Appendix C. We excluded
the attachment to Virginia’s comments because it contained personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Verifying Virginia’s CMS-64 reports fell outside the scope of our audit. However, an
adjustment to the CMS-64 would refund the payments to the Medicaid program, not to the
Medicare program. Because the Medicare program reimbursed the drug claims under the Part D
demonstration project, we continue to recommend that Virginia refund the payments to the
Medicare program and we have clarified our recommendations accordingly.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Medicare Part D Prescription Drug Benefit ................................................ 1
              Full-Benefit Dually Eligible Beneficiaries ................................................. 1
              Medicare Part D Demonstration Project ..................................................... 1
              Virginia’s Participation in the Part D Demonstration Project .................... 2
              Virginia’s Contractor .................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
               Objective ..................................................................................................... 2
               Scope ........................................................................................................... 2
               Methodology ............................................................................................... 3

FINDING AND RECOMMENDATIONS ...................................................................... 4

          PART D DEMONSTRATION PROJECT REQUIREMENTS ............................. 4

          IMPROPER PAYMENTS ...................................................................................... 4

          RECOMMENDATIONS ........................................................................................ 5

          VIRGINIA COMMENTS....................................................................................... 5

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 5

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS

          C: VIRGINIA COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Medicare Part D provides optional prescription drug coverage for
individuals who are entitled to Medicare Part A or enrolled in Medicare Part B. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
entities known as Part D sponsors to provide prescription drug coverage for beneficiaries
enrolled in the Part D program. Part D sponsors may offer drug coverage through more than one
drug plan.

CMS pays Part D sponsors monthly prospective payments to provide Part D prescription drug
coverage. These payments are based on estimates that Part D sponsors provide in their approved
bids before the beginning of the plan year. After the close of the plan year, CMS must reconcile
these payments to the Part D sponsors’ actual costs to determine whether Part D sponsors owe
money to Medicare or Medicare owes money to Part D sponsors. Sections 1860D-15(c)(1)(C)
and (d)(2) of the Act and 42 CFR § 423.322 require Part D sponsors to submit to CMS certain
information necessary to conduct these reconciliations. This information includes summary
records called prescription drug event (PDE) records that Part D sponsors submit every time a
pharmacy dispenses a prescription for a beneficiary covered under Medicare Part D. PDE
records contain prescription drug cost and payment data, including the provider identification
number, that enable CMS to pay Part D sponsors and otherwise administer the Part D benefit.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, Section 103(c) of the MMA and upon implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-
benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some
full-benefit dually eligible beneficiaries did not enroll in or were not assigned to a Part D plan.
As a result, some States paid for these beneficiaries’ Medicare Part D drugs during the transition
period.

Medicare Part D Demonstration Project

To reimburse States for costs incurred during the transition period, CMS implemented the
Reimbursement of State Costs for Provision of Part D Drugs Medicare demonstration project
(Part D demonstration project) pursuant to section 402(a)(l)(A) of the Social Security



                                                 1
Amendments of 1967, as amended. 1 The Part D demonstration project permitted Medicare to
reimburse States for full-benefit dually eligible beneficiaries’ Part D drugs to the extent that
those costs were not recoverable from a Part D sponsor and were not required Medicare cost
sharing on the part of the beneficiary. To participate in the Part D demonstration project and
receive reimbursement for their incurred costs, States were required to submit a signed Section
402 Demonstration Application to CMS.

Virginia’s Participation in the Part D Demonstration Project

On February 14, 2006, Virginia applied to participate in the Part D demonstration project. By
participating, Virginia agreed to pay for dual eligible beneficiaries’ drug claims that should have
been paid under Medicare Part D. Virginia processed these drug claims through its Medicaid
point-of-sale system. CMS subsequently reimbursed Virginia for these drug claims at Virginia’s
Medicaid rate.

In 2007, we audited Virginia’s compliance with the Part D demonstration project requirements. 2
Our audit found that Virginia complied with the requirements; however, our audit scope did not
require that we determine whether Virginia also billed these claims to a Part D sponsor.

Virginia’s Contractor

Federal law mandates that Medicaid is to be the payer of last resort. Virginia contracts with
HMS to seek reimbursement for Medicaid claims from insurers who also provided coverage to
Medicaid beneficiaries. HMS collects recoveries from insurers and then provides a check to
Virginia for Medicaid claims it has already paid on the beneficiary’s behalf.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Virginia received payments from a Part D sponsor and
from CMS under the Medicare Part D demonstration project for the same dispensing events.

Scope

Our audit covered the period January 1 through March 8, 2006. We judgmentally selected one
Virginia provider identification number that appeared on PDE records because it represented a
large number of payments in the database of matched claims that we reviewed. The provider
identification number was a Federal tax identification number for Virginia. CMS reimbursed
Virginia $192,023 for 3,443 Part D demonstration claims that also had a Part D sponsor-

1
 Demonstration provisions are codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable to Medicare
Part D in section 1860D-42(b) of the Act.
2
 Review of Virginia’s Compliance With the Reimbursement of State Costs for Provision of Medicare Part D Drugs
Demonstration Project Requirements (A-03-07-00001), issued October 4, 2007.

                                                       2
submitted PDE record for this tax identification number. The calculated payment recovered
from the sponsor for these claims was $168,500.

Our audit objective did not require an understanding or assessment of Virginia’s overall internal
control structure. We limited our review of internal controls to obtaining an understanding of the
procedures Virginia used to bill Part D sponsors for Part D demonstration project claims.

We conducted our fieldwork at the Virginia Department of Medical Assistance Services offices
in Richmond, Virginia, in August 2009.

Methodology

To accomplish our objective, we:

   •   reviewed applicable laws, regulations, and guidance related to the Part D demonstration
       project and PDE records;

   •   discussed with Virginia Department of Medical Assistance officials Virginia’s practices
       for billing Part D sponsors for Part D demonstration project claims;

   •   compared CMS’s PDE records with Virginia’s Part D demonstration project claims for
       the period January 1 through March 8, 2006 to identify providers with potential duplicate
       payments;

   •   identified a sampling frame of 3,443 PDE records using the Federal tax identification
       number that matched claims paid to Virginia under the Part D demonstration project and:

           o from the sampling frame, selected a random sample of 46 claims and

           o for each sampled claim, requested and reviewed payment documentation from the
             identified Part D sponsor; and

   •   identified the total dollar value of improper Part D demonstration project payments.

Appendix A provides a description of the sampling methodology and Appendix B details the
sample results.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                3
                               FINDING AND RECOMMENDATIONS

For all 46 sampled claims, Virginia received Medicare Part D payments from both CMS and a
Part D sponsor. CMS paid and Virginia’s contractor recovered payments from the Part D
sponsor for the same dispensing events. Virginia said its contractor had misidentified the claims
as Medicaid claims and that it had reimbursed CMS by submitting adjustments for 50 percent of
the recovered payments on its Form CMS-64, Quarterly Medicaid Statement of Expenditures for
the Medical Assistance Program (CMS-64).

Based on our sample results, we estimate that Virginia received $168,500 in improper payments
for the 3,443 claims that were reimbursed by CMS under the Part D demonstration project and
also paid by the Part D sponsor. 3

PART D DEMONSTRATION PROJECT REQUIREMENTS

To participate in the Part D demonstration project and receive reimbursement for their incurred
costs, States were required to submit a signed “Section 402 Demonstration Application”
(Medicare demonstration application) to CMS. By submitting Medicare demonstration
applications, States agreed to (1) require pharmacies to bill the Part D plan before relying on
State payment (i.e., the State was the payer of last resort); (2) provide specific information to
CMS on Part D drug claims and administrative costs; (3) ensure that claims submitted were for
covered Part D drugs; (4) separate demonstration project claims from those payable under other
programs; (5) submit claims only for drug costs (not including beneficiary cost sharing) and
administrative costs incurred during the demonstration project’s effective dates; (6) report to
CMS the number of claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that
Medicare funding was not used as State Medicaid matching funds (State Medicaid Director
Letter No. 06-001 (Feb. 2, 2006); CMS, Section 402 Demonstration Action Templates:
Reimbursement of State Costs for Provision of Part D Drugs).

IMPROPER PAYMENTS

For all 46 sampled claims, Virginia billed and received Medicare Part D payments from both the
Part D sponsor and CMS. Pursuant to the Part D demonstration project requirements, Virginia
required pharmacies to bill the Part D plan before relying on State payment. If the Part D
sponsor could not be billed at the pharmacy, Virginia agreed to pay the claim through its
Medicaid point-of-sale system and bill Medicare Part D (CMS) for the payment. Accordingly,
Virginia paid the 46 claims in our sample through its point-of-sale system, billed CMS, and
received Medicare payments under the Part D demonstration project.

Subsequently, Virginia’s contractor misidentified the Part D demonstration claims as Medicaid
claims and recovered payments from the Part D sponsor. The contractor submitted the recovered
payments to Virginia. The Part D sponsor submitted PDE records to CMS using Virginia’s
Federal tax identification number in place of the provider identification number.
3
 The total dollar value of improper payments reflects the calculated reimbursement to Virginia by the Part D
sponsor.

                                                         4
Because sponsors were contractually obligated to pay for full-benefit dually eligible
beneficiaries’ Part D drugs, $2,423 of the payments that Virginia received under the Part D
demonstration project for the 46 sampled claims were improper.

At the time of our audit, Virginia could not support that it had refunded any of these improper
payments to Medicare. Virginia stated that, in general, it reported 50 percent of the Medicare
payments received from Part D sponsors on its Medicaid Forms CMS-64, even though it did not
initially claim any amounts to Medicaid. Based on the documentation that Virginia provided, we
were unable to determine whether any of the improper Part D demonstration payments described
in this report were incorrectly submitted as Medicaid adjustments on the CMS-64.

Virginia also said that it billed other Part D sponsors, and refunded portions of other Part D
demonstration claims on its CMS-64. However, because the PDE records were associated with
claims submitted for other provider identification numbers, they fell outside the scope of this
review. Therefore, we could not validate Virginia’s statements.

Based on our sample results, Virginia received improper payments of $168,500 for 3,443 claims
that were reimbursed by CMS under the Part D demonstration project and also paid by the Part D
sponsor.

RECOMMENDATIONS

We recommend that Virginia work with CMS to:

   •   refund to the Medicare program the $168,500 in improper Part D demonstration project
       payments identified in this audit and

   •   determine and resolve other improper Part D demonstration project payments received by
       Virginia for claims paid by other Part D sponsors.

VIRGINIA COMMENTS

In its response to our draft report, Virginia concurred with our finding. Virginia stated that it
reviewed all Part D demonstration project claims and determined that HMS inadvertently billed
and recovered $286,388. Virginia stated that it reported 50 percent of the recoveries, or
$143,194, to CMS on its CMS-64 and intended to reflect the remaining $143,194 on its CMS-64
for the next quarter. Virginia’s comments on our draft report are included as Appendix C. We
excluded the attachment to Virginia’s comments because it contained personally identifiable
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Verifying Virginia’s CMS-64 reports fell outside the scope of our audit. However, an
adjustment to the CMS-64 would refund the payments to the Medicaid program, not to the
Medicare program. Because the Medicare program reimbursed the drug claims under the Part D


                                                5
demonstration project, we continue to recommend that Virginia refund the payments to the
Medicare program and we have clarified our recommendations accordingly.




                                              6
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY


POPULATION

The population represented prescription drug event (PDE) records with Virginia’s Federal tax
identification number used as a provider identification number that matched claims paid to
Virginia under the Part D demonstration project.

SAMPLING FRAME

The sampling frame was an Excel spreadsheet of 3,443 PDE records each of which matched one
claim paid under the Part D demonstration project. The calculated value of matched claims
totaled $168,500 in demonstration project reimbursement.

SAMPLE UNIT

The sampling unit was one individual line item identifying a PDE record matched to a Part D
demonstration project claim.

SAMPLE DESIGN

We used discovery sampling.

SAMPLE SIZE

We selected 46 matched claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of the Inspector General, Office of Audit
Services Statistical software. We used the random number generator for selecting the sample
items.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the matched claims in our sampling frame from 1 to 3,443. After
generating 46 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

All 46 items in the sample were in error; we have sufficient evidence to question the amount in
the sample frame, and we are 90 percent confident that the error rate in the population is at least
95 percent.
                     APPENDIX B: SAMPLE RESULTS


                Dollar
      Sample   Value of             Value    Number of    Value of
      Frame     Sample    Sample     of      Improper    Improper
       Size     Frame      Size    Sample    Payments    Payments
Total 3,443    $168,500    46       $2,423     46          $2,423
                                                                                      Page 1 of 3

                          APPENDIX C: VIRGINIA COMMENTS



May 18, 2010


Mr. Stephen Virbitsky
Regional Inspector General, Audit Services
Department of Health & Human Services
Office of Inspector General, Audit Services
150 S. Independence Mall West, Suite 316,
Philadelphia, Pennsylvania 19106-3499

Dear Mr. Virbitsky:

This is in reference to your letter dated April 20, 2010, concerning the audit of Medicare Part D
drugs dispensed to full benefit dual eligible beneficiaries and paid for by the Virginia
Department of Medical Assistance Services (DMAS) during the period January 1, 2006 through
March 8, 2006. The results of your audit asserts that the DMAS received improper payments for
Medicare Part D drugs dispensed during the period January 1, 2006 through March 8, 2006.
This is DMAS’ response to your findings and recommendations.

DMAS participated in the Medicare demonstration project under §402(a)(1)(A) of the Social
Security Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) expressly applicable to
Part D at § 1860D-42(b)). DMAS paid for dually eligible recipient drug claims through its
Medicaid point-of-sale system and CMS reimbursed DMAS for the claims at Virginia’s
Medicaid rate. DMAS contracted with Health Management Services (HMS) to seek
reimbursement for Medicaid claims from insurers who also provided coverage to Medicaid
beneficiaries.

The OIG requested information on 3443 claims totaling $192,023. Of the total sample, 46 of
those claims were reviewed to determine whether DMAS received payments from a Part D
sponsor and from CMS under the Medicare Part D 402 demonstration project for the same
dispensing events. The OIG’s audit of these claims determined that DMAS received Medicare
Part D payments from both the Part D sponsor and CMS. Based on the results of the 46 claims
sampled, the OIG subsequently concluded that DMAS received improper payment for the entire
sample of 3443 claims totaling $192,023.
OIG Part D Audit (A03-09-00021)
May 18, 2010
Page 2
                                                                                       Page 2 of 3

OIG Recommendations

1) Refund to CMS the $192,023 in improper Medicare Part D demonstration project
payments identified in the audit

DMAS’ Response

Concur there were improper payments – DMAS sampled the entire population of claims
submitted under the Medicare Part D 402 Demonstration Project to determine if improper
payments were made as identified during the OIG audit. A total of 85,716 claims were
processed for payment by DMAS totaling $5,492,369. DMAS’ contractor, HMS, improperly
rebilled and recovered $286,388 from third party payors.

Part D Sponsors are contractually obligated to pay for full-benefit dually eligible beneficiaries’
Part D drugs. According to DMAS’ Third-Party Liability Manager, HMS marked the Part D
claims so that they would not be pursued with Part D carriers; however, the eligibility files
coming from the carriers to HMS resembled other insurance records, not being distinctively
marked as Part D. In addition, HMS was not in receipt of any information from DMAS showing
which claims had been reimbursed by CMS so HMS could not close them to recovery. Thus,
HMS inadvertently billed and recovered $286,388 of Demonstration Project funds from third-
party payors (see Attachment A).

We sampled the recovery checks sent to DMAS by HMS in connection with the audit and found
the reimbursements were posted to the CMS-64 Report using a 50%/50% split between Federal
and State funds, (see Attachment A).

Based on DMAS’ review of the entire population of claims submitted and processed under the
Medicare Part D 402 Demonstration Project and the subsequent of review of claims rebilled and
recovered by DMAS’ contractor, we believe the amount due to CMS to settle this matter is:

HMS Recoveries and DMAS Payments to CMS:
HMS Third Party Recoveries                                                 ($ 286,388)
 Recoveries refunded to CMS by DMAS via CMS-64 Reporting                      143,194
                           Balance Due To/(From) DMAS:                     ($ 143,194)

The second payment is required because CMS refunded 100% of the original claim amounts to
DMAS, not 50% as would be customary.

We recommend that DMAS reimburse CMS in the amount of $143,194 for Demonstration
Project drug related claims activity of the period January 1, 2006 to March 8, 2006. The amount
due will be reflected in the CMS-64 for the quarter ending June 30, 2010.
OIG Part D Audit (A03-09-00021)
May 18, 2010
Page 3
                                                                                  Page 3 of 3


2) work with CMS to determine and resolve other improper demonstration project
payments received by Virginia for claims paid by other Part D sponsors

DMAS’ Response

Concur – DMAS reviewed all claims received under the Part D demonstration project for the
period January 1, 2006 to March 8, 2006 and determined that $143,194 of improper payments
are due to CMS. See DMAS’ response to OIG Recommendation #1 above.

Please contact Karen Stephenson at 804-786-5592 should you have questions or need additional
information.

Sincerely,



/Cynthia B. Jones/
Acting Director

enclosure
